Bob Ferguson

ATTORNEY GENERAL OF WASHINGTON
Solicitor General Division
PO Box 40100 • Olympia WA 98504-0100 • (360) 753-6200
October 12, 2020
Honorable Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
RE:

Courtney v. Danner, Docket No. 20-361

Dear Mr. Harris:
I am counsel of record for the Respondents in this case. A response to the petition for writ of
certiorari is currently due November 2, 2020. Pursuant to Rule 30.4, Respondents request an
extension to December 4, 2020, to file a brief in opposition.
We make this request for several reasons. My office serves as counsel for Washington’s
Secretary of State and is currently leading a number of cases relating to the election on
November 3, 2020. I am lead counsel in Washington v. Trump, No. 20-cv-03127-SAB (E.D.
Wash.), related to the U.S. Postal Service’s handling of election mail for the 2020 election, and
my co-counsel in this case, Tera Heintz, who served as lead counsel in this case below, is
concurrently litigating an expedited election case before the Washington State Supreme Court as
counsel for Washington’s Secretary of State in Alaska Oregon Washington State Area
Conference of the National Association for the Advancement of Colored People v. Wyman.
Ms. Heintz is also litigating a related expedited case in superior court, and we both anticipate
additional urgent election cases to arise both before and after the election on November 3, 2020.
Our small team that handles U.S. Supreme Court matters will therefore need additional time to
ensure that we can provide the Court quality briefing in response to the petition. Petitioners do
not object to the requested extension.
Thank you for your consideration of this request.
Sincerely,
s/ Noah G. Purcell
NOAH G. PURCELL
Solicitor General
wro
cc:

Michael E. Bindas, Counsel of Record for Petitioners

